I

APPENDIX

i

USCA11 Case: 20-10686

Date Filed: 02/05/2021

i

Page: 1 of 5

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10686
Non-Argument Calendar
D.C. Docket No. 4:00-cr-00007-HLM-WEJ-3

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
KENNETH DARNELL WILLIAMS,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Georgia
(February 5, 2021)
Before LUCK, LAGOA, and BLACK, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-10686

Date Filed: 02/05/2021

Page: 2 of 5

--Kenneth Darnell Williams, a former federal prisoner proceeding pro se, l
appeals the district court’s denial of his petition, for a: writ of error coram nobis or,
alternatively, for a writ of audita querela challenging a 2000 federal conviction for
which he has completed his sentence. Williams first reiterates the merits .of his
ineffective assistance of counsel claim and contends he did not learn that his trial
counsel failed to file an appeal until November 2017 when he hired a new attorney
to litigate a motion to vacate his state convictions. He also reiterates his claim of
newly discovered evidence and argues he could not have discovered the facts
underlying-his codefendants’ affidavits earlier or received the affidavits sooner:; .
Finally, Williams argues that the district court erred by not holding an evidentiary
hearing on his petition. After review,2 we affirm the district court.
I. DISCUSSION .
A. Ineffective Assistance of Counsel Claim

.

• .. \ V

■.

First, neither writ of error coram nobis not writ of audita querela was
available as to Williams’s ineffective assistance claim because that claim was

i

« Pro se pleadings are

held to a less stringent standard than pleadings drafted by
attorneys and will, therefore, be liberally construed.” Tannenbaum v. United States, 148 F.3d
1262, 1263 (11th Cir. 1998).
< 2 We review a district court’ s denial of a petition for writ of error coram nobis for abuse ,
of discretion. Alikhani v. United States, 200 F.3d 732, 734 (11th Cir. 2000). We review “de
novo the question of whether a prisoner.may challenge his sentence by filing a motion for a writ
of audita querela.” United States v. Holt, 417 F.3d 1172,1174 (11th Cir. 2005).
2

USCA11 Case: 20,10686

Date Filed: 02/05/2021

Page: 3 of 5

!

..i

cognizable only ura timely 28 U.S.C. § 2255 motion:- See^ e.g.^ UnitedjStateS v.
Patterson, 595 F.3d 1324, ;1328-29 (Idth Cir. 2010% see also .United, States v. Holt,
417 F.3d 1172,1175 (11th Cir/2005)i(‘‘{W]e>hQld thsct a writof audita

.

*.

querela may not be granted when relief is cognizable under § 2255:”); Alikhani v.
United States, 20.0 F.3 d732,734 (11th Cir. 2000) (“[T]he writ [of error oomwno/j/s] i&„appropriate bnlyrwhen there is: and was no other available avenue of .
relief.”)/ This rule applies even though-Williams’s only remaining remedy may be.
to seek leave from this Court to file a successive .§ 2255. motion. See Holt, 417
F.3d at 1175.; Moreover, Williams’s argument that he was unaware that his trial
counsel did not file an appeal until over a decade after his judgment became final
does not constitute a sound reason for failing to seek relief earlier ; he has not
explained why he could not have inquired as to the status of an appeal and has not
asserted that he followed up with trial counsel after his sentencing proceedings.
See United States v. Mills, 221 F.3d 1201,1204 (11th Cir. 2000) (stating courts
may consider a comm nobis petition only wheri there are sound reasons for the
petitioner’s failure to seek relief earlier).
B. Newly Discovered Evidence Claim
Second, Williams’s newly discovered evidence claim was not cognizable in
a coram nobis proceeding because it did not constitute an error of fundamental
character. See id. Likewise, Williams was not entitled to audita querela relief as
3

.

n;

USCA11 Case: 20-10686

Date Filed: 02/05/2021

Page: 4 of 5

to that elaifn because Federal Rule of Criminal Procedure 33 controlled the claim
rather than the All Writs Act,* which is available only where there Was Or is no
other remedy. See Holt, 417 F.3d at 1174-7:5 (stating the writ of audita querela
continues to exist only to the extent necessary to fill in the gaps not covered by
federal post-conviction remedial law); see also Pa. Bureau ofCorf. - v. U. S.
Marshals Serv., 474 U.S. 34, 43, 106 S. Ct. 355, 361 (1985) (explaining that,1
where another law specifically addresses a particular issue, the All Writs Act is not
controlling). To the extent Williams has framed his newly discovered evidence*
challenge as an extension of his ineffective assistance claim—a claim which arises
under the Sixth Amendment—such a claim was cognizable only in a § 2255
motion. See Holt, 417 F.3d at 1175. To the extent such a claim can be construed
as a due process challenge, audita querela reliefwas not available for the same
reason. See id.
C. Evidentiary Hearing
Finally; the-district court did not err by declining to hold an evidentiary
hearing because even if Williams’s allegations are true, he would not be entitled to
coram nobis or audita querela relief.4 See Aron v. United States, 291 F.3d 708,

3

28 U.S.C. § 1651(a).

4 This Court has not yet specified a standard of review for the denial of an evidentiary
hearing for a petition for a writ of error coram nobis or a writ of audita querela-, however, in
4

*

!

USCA11 Case: 20-10686

Date Filed: 02/05/2021

Page: $ of 5

715 (11th Cir.^2002) (“[A] district court is not required to hold aff£Wdentiary
hearing where the petitioner’s allegations are affirmatively contradicted by the
record, or the claims are patently frivolous ,. r* •* ”)•
IL CONCLUSION
Accordingly, we affirm, the district court’s denial of Williams’s petition for a,
writ of eiror coram nobis ov a. writ of audita querela,.
AFFIRMED.

• . ; •;

!

I'-.*

; mm

t i

.mi-:.
;

• -’■mz

• X

\

other contexts, a district court’s denial of an evidentiary hearing is reviewed for an abuse of
discretion. See Aron v. United States, 291 F.3d 708, 714 n.5 (11th Cir. 2002),
5

I

APPENDIX
A-2

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ROME DIVISION

UNITED STATES OF
AMERICA,
CRIMINAL FILE NO.
4:00-C R-007-03-H LM-WE J

v.
KENNETH DARNELL
WILLIAMS,
Defendant.

ORDER
This case is before the Court on Defendant’s Motion for a
Writ of Error Coram Nobis, or, Alternatively, for a Writ of Audita
Querela [181].
I.

Background
On February 8, 2000, a federal grand jury sitting in the

Northern District of Georgia returned an indictment against
Defendant and two co-defendants. ~lndictment (Docket Entry
No. 1).) The indictment charged Defendant with two counts of

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 2 of 12

conspiring to distribute narcotics, in violation of 21 U.S.C. § 846.
(Id.) Defendant proceeded to a jury trial, and, on June 27, 2000,
a jury found Defendant guilty on count one and not guilty on
count two. (Jury Verdict (Docket Entry No, 67).) On August 25
2000, the Court sentenced Defendant to seventy-two months of
imprisonment, to be followed by six years of supervised release.
(Docket Entry No. 76.) On August 28, 2000, the Court entered
its

Judgment

and

Commitment

Order.

(Judgment

&

Commitment Order (Docket Entry No. 77).) Defendant did not
file a direct appeal. On August 10, 2010, the Court signed an
Order terminating Defendant’s supervised release.

(Petition &

Order Terminate Supervised Release (Docket Entry No. 115).)
On April 13, 2018, Defendant signed and mailed a Motion
to Vacate, Set Aside, or Correct Sentence under 28 U.S.C. §
2255 (“§ 2255 Motion”). (§ 2255 Motion (Docket Entry No. 148).)
Defendant argued that: (1) his counsel provided ineffective
assistance, including by failing to file a notice of appeal; and (2)
2

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 3 of 12

no evidence supported his conviction because the primary
prosecution witness committed perjury. (Id. at 1-4.)
United

States

Magistrate Judge

Walter

E.

Johnson

recommended that the Court dismiss the § 2255 Motion as
untimely.

(Final Report & Recommendation (Docket Entry No.

149).) On May 14, 2018, the Court adopted Judge Johnson’s
Final Report and Recommendation and dismissed the § 2255
Motion as untimely. (Order of May 14, 2018 (Docket Entry No.
154).) The Court denied Defendant’s Motion to Reinstate his §
2255 Motion. (Order of May 24, 2018 (Docket Entry No. 158).)
Defendant appealed, and the United States Court of Appeals for
the Eleventh Circuit ultimately affirmed the denial of the § 2255
Motion, concluding that the Court lacked jurisdiction to consider
that Motion because Defendant was no longer in custody under
that conviction.

Williams v. United States. 785 F. App’x 710

(11th Cir. 2019) (per curiam).

The Eleventh Circuit issued its

3

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 4 of 12

mandate on October 3, 2019.

(USCA Mandate (Docket Entry

No. 174).)
On December 18, 2019, the Clerk received Defendant’s
Motion for a Writ of Error Coram Nobis, or, Alternatively, for a
Writ of Audita Querela. (Mot. Writ Error (Docket Entry No. 181).)
The Court ordered the Government to respond to that Motion.
(Order of Dec. 19, 2019 (Docket Entry No. 183).)
Government responded as directed.

The

(Resp. Mot. Writ Error

(Docket Entry No. 187).) Defendant filed a reply in support of his
Motion.

(Reply Mot. Writ Error (Docket Entry No. 188).) The

Court finds that the briefing process for the Motion is complete,
and it concludes that the matter is ripe for resolution.
II.

Discussion
Defendant has moved for a writ of audita querela, or,

alternatively, for a writ of error coram nobis, arguing that he is
entitled to this relief based on ineffective assistance of counsel
and based on newly discovered evidence. : (See generally Mot.
4

•. ■ /•

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 5 of 12

Writ Error.) In a recent case, the Eleventh Circuit discussed both
writs, explaining:
The All Writs Act grants federal courts the power to
issue writs “necessary or appropriate in aid of their
respective jurisdictions and agreeable to 'the usages
and principles of law.’”
28 U.S.C. § 1651(a).
However, “[t]he All Writs Act is a residual source of
authority to issue writs that are not otherwise covered
by statute. Where a statute specifically addresses the
particular issue at hand, it is that authority, and not the
All Writs Act, that is controlling.” Pa. Bureau of Corr. v.
U.S. Marshals Serv., 474 U.S. 34, 43, 106 S. Ct. 355,
88 L.Ed.2d 189 (1985). Accordingly, common law
writs, such as coram nobis and audita querela, survive
only to the extent that they “fill the interstices of the
federal post-conviction remedial framework through
remedies available at common law.” United States v.
Holt, 417 F.3d 1172, 1175 (11th Cir. 2005).
Audita querela, like coram nobis, is an “extraordinary
remedy” that is available “only under circumstances
compelling such action to achieve justice.” United
States v. Morgan. 346 U.S. 502, 511, 74 S. Ct. 247, 98
L.Ed.2d 248 (1954). These writs may be used to
correct “errors of the most fundamental character.” id.
at 512, 74 S, Ct 247 (quotation marks, citation, and
footnote omitted). See also United States v. Denedo,
556 U.S. 904, 911, 129 S. Ct. 2213, 173 L.Ed. 2d 1235
(2009) (noting that the Supreme Court . . . limits the
use of extraordinary writs “to redress a fundamental
error . . . as opposed to mere technical errors”).
5

Case 4:0Q-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 6 of 12

“‘[Circumstances compelling such action to achieve
justice’ . . . exist only when the error involves a matter
of fact of the most fundamental character which has
not been put in issue or passed upon and which
renders the proceeding itself irregular or invalid.”
Moody v. United States, 874 F;2d 1575, 1576-77 (11th
Cir. 1989) (quoting Morgan, 346 U.S. at 511, 74 S. Ct.
247).
Although similar in nature, “[ejach of the ancient writs
permitted relief in different scenarios.” Gonzalez v.
Sec’v for Dep’t of Corr., 366 F.3d 1253,1289 (11th Cir.
2004), “Audita querela, Latin for ‘the complaint having
been heard’, was an ancient writ used to attach the
enforcement of a judgment after it was rendered.”
Holt, 417 F.3d at 1174 (citing Black’s Law Dictionary
126 (7th ed. 1999)). The common law writ “typically
‘afford[ed] relief to a judgment debtor against a
judgment or execution because, of some defense or
discharge arising subsequent to the rendition of the
judgment or the issue of the execution.’” Gonzalez,
366 F.3d at 1289 (quoting 11 Charles Alan Wright,
Arthur R. Miller & Mary Kay Kane, Federal Practice
and Procedure § 2687, at 398 (Civil 2d ed. 1995)
(alteration in original). See also United States v.
Miller. 599 F.3d 484, 488 (5th Cir. 2020) (“[Audita
querela] can only be available where there is a legal
objection to a judgment which has arisen subsequent
to that judgment.”). So long as there is another
avenue for relief, a writ of audita querela is not
See IM, 417 F.3d at 1174-75
appropriate.
(concluding that audita querela relief was improper
6

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed,.01/30/20 Page 7 of 12

because relief was cognizable under 28 U.S.C. §
2255).
Coram nobis is a similarly extraordinary writ that may
be used to remedy “mistakes of fact, not appearing on
the face of the record, and but for which the judgment
would not have been entered.” Gonzalez. 366 F.3d at
1289 (quotation marks omitted). See also Miller, 599
F.3d at 487. Audita querela differs from coram nobis
in that coram nobis attacks the judgment itself, which
was unsound when rendered, whereas audita querela
is directed against the enforcement of a judgment
which, when rendered, was just and unimpeachable.
See Miller. 599 F.3d at 487 (citing 7A C.J.S. Audita
Querela § 4 (2004)). Stated another way, a writ of
coram nobis is properly used to challenge a judgment
that was infirm at the time it was rendered for reasons
later coming to light, whereas a writ of audita querela
is used to challenge a judgment that was correct at the
time it was rendered but is made infirm by matters that
arose after it was rendered. See United States v.
Reyes, 945 F.2d 862, 863 n.1 (5th Cir. 1991)
(comparing the Black’s Law definitions of audita
querela and coram nobis).
Ramdeo v. United States. 760 F. App’x 900, 902-03 (11th Cir.
2019) (per curiam) (some alterations in original),

For the

reasons discussed below, the Court declines to issue a writ of
coram nobis or a writ of audita querela.
7

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 8 of 12

A.

Writ of Error Ooram Nobis

With respect to Defendant’s request for a writ of error
coram nobis. Defendant argues that his trial counsel provided
ineffective assistance by disregarding Defendant’s specific
instructions to file~a notice of appeal.

Certainly, “[t]he writ of

error coram nobis has been issued to remedy certain violations
of the sixth amendment.”

Moody. 874 F.2d at 1577.

For

example, in United States v. Morgan, 346 U.S. 502 (1954), an
uneducated and unrepresented nineteen-year-old defendant
alleged that he was not advised of his constitutional rights and
did not competently or intelligently waive his right to counsel
before entering his guilty plea.

346 U.S., at 511-12.

The

Supreme Court noted: “Where it cannot be deduced from the
record whether counsel was properly waived, we think, no other
remedy being then available and sound reasons existing for
failure to seek appropriate earlier relief, this motion in the nature

8

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 9 of 12

of the extraordinary writ of coram nobis rhust be heard by the
federal trial court.” jd. at 512 (footnote omitted).
This case, however, differs from Morgan_Here, Defendant
was aware, or should have been aware, of the basis for his
ineffective assistance of counsel claim at the conclusion of his
case, after his counsel failed to file a notice of appeal within the
applicable time period. Defendant should have raised this claim
in a timely Motion filed under § 2255.

With all due respect to

Defendant, he has not established that there were sound
reasons for failing to seek relief earlier. Because Defendant had
“another remedy available for the sixth amendment violation
alleged,” he “cannot now have his conviction vacated via the
extraordinary writ of error coram nobis.”

Moody. 874 F.2d at

1578 (footnote omitted). 1

1

The Eleventh Circuit noted that Defendant “would not be
entitled to coram nobis relief because he could have challenged
his federal conviction while still in custody pursuant to that
conviction.” Williams. 785 F. App’x at 713 n.1.
9

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 10 of 12 .

Defendant aiso cannot obtain coram nobis relief for his
newly discovered evidence claim. According to Defendant, new
affidavits from his co-defendants establish that he is not guilty of
the offense charged in the indictment.

A claim of newly

discovered evidence relevant only to the guilt or innocence of a
defendant, however, is not cognizable in a coram nobis
proceeding.

Mayer. 235 U.S. 55, 69 (1914).

This rule is

consistent with Federal Rule of Criminal Procedure 33, which
L

requires that a motion for new trial based on newly discovered
evidence be filed within three years after a verdict. Fed. R. Grim.
P. 33(b)(1). Far more than three years have passed since the
jury’s verdict in Defendant’s case, and a motion for new trial
based on newly discovered evidence would clearly be timebarred.

Id.

Under those circumstances, Defendant cannot

obtain a writ of coram nobis based on his newly discovered
evidence claim. See Moody, 874 F.2d at 1577 (“The writ of error
coram nobis .

. cannot be available for new evidence only
10

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20 Page 11 of 12

potentially relevant to an issue decided long ago by a jury for, if it
were, the limitations of Rule 33 would be meaningless and the
writ would no longer be extraordinary.”); see also United States
v. Mills. 221 F.3d 120t, 1203-04 (11th Cir. 2000) (“A court’s
jurisdiction over coram nobis petitions is limited to the review of
errors of the most fundamental character.

Such errors do not

include ... newly discovered evidence.” (internal quotation
marks and citations omitted)).
In sum, Defendant cannot obtain a writ of error coram
nobis.

The Court therefore denies the portion of Defendant’s

Motion that seeks a writ of error coram nobis.
B.

Writ of Audita Querela

Defendant cannot obtain a writ of audita querela for his
ineffective assistance of counsel claim, because that claim was
cognizable under § 2255 and should have been asserted in a
timely § 2255 Motion.

Further, Defendant’s newly discovered

evidence claim would have been cognizable under Rule 33 but is

11

Case 4:00-cr-00007-HLM-WEJ Document 189 Filed 01/30/20. Page 12 of 12

now time-barred. Fed. R. Crim. P. 33(b)(1). Allowing Defendant
to invoke the writ of audita querela for that claim would render
Rule 33’s restrictions null and void, and “would prolong litigation
once concluded, thwarting society’s compelling interest in the
finality of criminal convictions,” Moody. 874 F.2d at 1577. The
Court therefore denies Defendant’s request for a writ of audita
querela.
III.

Conclusion
ACCORDINGLY, the Court DENIES Defendant’s Motion for

a Writ of Error Coram Nobis, or, Alternatively, for a Writ of Audita
Querela [181].
IT IS SO ORDERED, this the^ day of January, 2020.

SENIOR UNITED STATES DISTRICT JUDGE

12

